IN THE SUPREME COURT OF THE UNITED STATES
No.

_

STARLINE TOURS OF HOLLYWOOD, INC.,
Petitioners,
vs.
EHM PRODUCTIONS INC. and WARNER BROS.
ENTERTAINMENT INC.
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that
the petition for writ of certiorari contains 5083 words,
excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on April 2, 2021

